July 29, 2010

MICHAEL J. AMATO
MANAGER, ENGINEERING SOFTWARE MANAGEMENT

SUBJECT: Audit Report – Access Controls Over the Electronic Data
         Distribution Infrastructure (Report Number IS-AR-10-011)

This report presents the results of our audit of the Electronic Data Distribution
Infrastructure (EDDI) (Project Number 10RG016IT000). Our objective was to determine
whether EDDI access controls are effective. We performed the audit to supplement a
U.S. Postal Service Office of Inspector General (OIG) investigation associated with
alleged unauthorized access to and modification of EDDI servers and files. This audit
addresses operational risk. See Appendix A for additional details about this audit.

EDDI servers – essentially workstations that share files – facilitate the automated
delivery of address data, mail sort programs, and application software updates required
to maintain current mail processing and handling equipment nationwide. Infrastructure
access controls help prevent unauthorized modification to, or unavailability of, the data
or systems that provide the Postal Service with the capability to deliver mail efficiently.

Conclusion

EDDI access controls are not effective. Management can improve preventive access
controls and preserve the U.S. Postal Service brand by xxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxx.

Access Controls

Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xx

Administrators did xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxbut rather, relied on automated
scripts1 to gather xxxxxxxxxxxxxxx2 only, which they believed to be an adequate

1
    A script is a list of commands executed to automate processes on a computer.
2
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
Access Controls Over the Electronic Data                                                              IS-AR-10-011
 Distribution Infrastructure


control. Comprehensive xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Additionally,
administrators did not xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
because management did not emphasize information security policy. Moreover,
administrators did not obtain formal approval through eAccess3 to utilize shared user
accounts because they were not aware of the requirement.4

xxxxxxx mitigates the risk of unauthorized access or undetected malicious activity
occurring on the EDDI servers that might render the data or servers unavailable, which
would affect the Postal Service’s ability to deliver mail efficiently. xxxxxxx also enables
forensic analysis in the event of a compromise; thus, improving the probability the
Postal Service can identify the cause of any unauthorized activity that poses a threat to
mail processing operations. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxunap
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx makes it difficult for administrators to identify
individuals who perform unauthorized modifications to servers or its data. See Appendix
B for our detailed analysis of this topic.

We recommend the manager, Engineering Software Management, direct the manager,
Software Development, to:

1. Enable xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx on
   Electronic Data Distribution Infrastructure servers.

2. Manage xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx according to Handbook
   AS-805, Information Security, requirements.

3. Obtain approval through eAccess to use shared user accounts within the Electronic
   Data Distribution Infrastructure environment.

Management’s Comments

Management agreed with the recommendations. In response to recommendation 1,
management will implement xxxxxxxxxxxxxxxxxxxxxxx on all EDDI servers.
Management stated that while they agree to implement recommendation 1, they believe
that xxxxxxx does not mitigate the xxxxxxxxxxxxxxxxxxxxxxxxx or undetected malicious
activity. To address recommendation 2, management will create individual user
accounts for all EDDI support personnel and set password expiration dates to 45 days.
Additionally, in response to recommendation 3, management will eliminate xxxxxxxx
xxxxxxxxxxxx on the EDDI servers.


3
    The Postal Service implemented the eAccess application to manage access to its information resources.
4
    Handbook AS-805, Information Security, dated November 2009, Section 9-4.2.4, Shared Accounts.




                                                          2
Access Controls Over the Electronic Data                                    IS-AR-10-011
 Distribution Infrastructure


The target completion date for all three recommendations is October 2010. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.
Regarding recommendation 1, we believe that while xxxxxxxxxxxx may not mitigate the
risk xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx or
malicious activity so that appropriate actions can be taken to mitigate future
occurrences.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Steven J. Forte
    Kelly M. Sigmon
    Shahpour Ashaari
    Corporate Audit Response Management




                                           3
Access Controls Over the Electronic Data                                                          IS-AR-10-011
 Distribution Infrastructure



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

EDDI is an Information Technology (IT) infrastructure managed by the Engineering
Software Management group in xxxxxxxxxxxx. The infrastructure consists of over xxx
stand-alone servers that that receive data via xxxxxxx and transfer the data to xxxxxx
xxxxxxxxxxxxxxxxxxxxxx5 which interface with mail processing and handling equipment.
The EDDI servers – essentially workstations that share files – facilitate the automated
delivery of address data, mail sort programs, and application software updates required
to maintain current mail processing and handling equipment nationwide. Access
controls to the infrastructure help prevent unauthorized modification to or unavailability
of the data or systems and maintain the Postal Service’s capability to deliver mail
efficiently.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether EDDI access controls are effective. To achieve
our objective, we interviewed key officials and reviewed applicable Postal Service
policy, standards, and procedures. We limited our review to access and xxxxxxxxxxx
controls on xxx EDDI servers using custom scripts and automated industry-accepted
software tools.

We conducted this performance audit from March through July 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls, as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusion based on our audit objective. In addition, we used manual and
automated techniques to analyze computer-processed data and concluded the data
were sufficiently reliable to meet the report objective. We discussed our observations
and conclusions with management officials on June 30, 2010, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




5
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx servers connect to automated mail processing systems and enable file transfers,
directory downloads, and terminal connections.




                                                       4
Access Controls Over the Electronic Data                                          IS-AR-10-011
 Distribution Infrastructure


                                   APPENDIX B: DETAILED ANALYSIS

Access Controls

We assessed xxx EDDI servers and identified that administrators did not:

        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

        Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxx.

        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

Information security policy requires that:

        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.6

        Personnel authenticate7 to information resources before performing any other
         action. One method of authentication is to require passwords.8

        Passwords for privileged or sensitive accounts expire at least every 30 days and
         passwords for all other accounts expire at least every 90 days. Management
         must make a request, in writing, to the manager, Corporate Information Security,
         for use of non-expiring passwords and document their use in eAccess.9

        Management delete logon identifications for user accounts not used within
         1 year.10

        Management obtain approval to utilize shared user accounts via eAccess.11




6
  Handbook AS-805, xxxxxxxxxxxxxxxxxxxxx.
7
  Authentication verifies the claimed identity of an individual or workstation.
8
  Handbook AS-805, Section 9-6, Authentication.
9
  Handbook AS-805, Section 9-6.1, Passwords.
10
   Handbook AS-805, Section 9-5.5, Terminating Logon Identification.
11
   Handbook AS-805, Section 9-4.2.4, Shared Accounts.




                                                             5
Access Controls Over the Electronic Data                    IS-AR-10-011
 Distribution Infrastructure



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                           6
Access Controls Over the Electronic Data       IS-AR-10-011
 Distribution Infrastructure




                                           7
